September 29, 2008

DAVID E. WILLIAMS, JR.
MANAGER, PROCESSING OPERATIONS

SUBJECT: Audit Report – Follow-up Review of Implementation of Significant Audit
         Recommendations Impacting Mail Processing Efficiency
         (Report Number NO-AR-08-011)

This report presents the results of our audit of the U.S. Postal Service’s progress in
implementing significant audit recommendations impacting mail processing efficiency
(Project Number 08XG033NO000). Our objectives were to determine the progress
made by the Postal Service in implementing significant U.S. Postal Service Office of
Inspector General (OIG) audit recommendations affecting mail processing efficiency,
and in assessing the productivity and service impact of actions taken on those
recommendations. This audit was self-initiated and addresses operational risks. Click
here to go to Appendix A for additional information about this audit.

Conclusion

The Postal Service achieved significant results in addressing OIG recommendations to
improve mail processing efficiency through workhour reductions. From March 1, 2004,
through September 30, 2007, the Postal Service reduced workhours by more than
1.6 million, or approximately 61 percent of the 2.7 million workhour reductions
recommended at the 11 facilities reviewed. Service scores have remained consistently
high, and productivity has improved in those facilities. In addition, the Postal Service
achieved the workhour reductions through attrition, with the total number of paid
employees decreasing by approximately 769, or 8 percent. However, the Postal
Service has not made workhour reductions at two facilities that require additional follow-
up.

Progress on Significant Recommendations

Through fiscal year (FY) 2007, the Postal Service:

    •   Reduced workhours by more than 1.6 million, or 61 percent of the total workhour
        reductions the OIG recommended, including almost 370,000 overtime
        workhours.1
1
 The 11 audits reviewed for this follow-up audit recommended reducing 2.7 million workhours for a savings of
$803 million.
Follow-up Review of Implementation of Significant                                                         NO-AR-08-011
 Audit Recommendations Impacting Mail Processing Efficiency



       •   Significantly exceeded expectations by achieving 77 percent or better of the
           recommended savings at four of the 11 facilities.

       •   Completed 61 percent of the recommended workhour reductions in
           approximately half the completion time specified in the recommendations.

       •   Achieved these reductions in workhours mainly through attrition, decreasing the
           total number of employees by 769, or 8 percent.

       •   Improved productivity and some service scores since the initial audits.

Click here to go to Appendix B for more details.

We also noted that while the Postal Service had not yet reduced workhours at two
facilities, the San Francisco and Los Angeles International Service Centers (ISCs), its
planned reorganization of the two sites should produce the recommended workhour
savings.2

Opportunity for Improvement

The Postal Service had not yet made the anticipated workhour reductions at the Canton
Processing and Distribution Center (P&DC) and the Dallas Bulk Mail Center (BMC).

Criteria

       •   Government Auditing Standards direct auditors to recommend actions to correct
           problems identified during their audits and to improve programs and operations
           when the potential for improvement is substantiated by the reported findings and
           conclusions. Effective recommendations encourage improvements in the
           conduct of government programs and operations.

       •   Office of Management and Budget (OMB) Circular A-50,3 Audit Follow-up, dated
           September 29, 1982, requires each agency to establish a system to ensure
           prompt and proper resolution and implementation of audit recommendations.




2
    The OIG plans to review the reorganization of the San Francisco and Los Angeles ISCs in FY 2009.
3
    Although the Postal Service is not required to follow OMB Circular A-50, we consider this a best practice.




                                                             2
Follow-up Review of Implementation of Significant                          NO-AR-08-011
 Audit Recommendations Impacting Mail Processing Efficiency


Cause and Effect

Management did not provide the necessary follow-up at the Canton P&DC and the
Dallas BMC to ensure workhours were reduced according to our recommendations.
Consequently, these facilities may still be using more workhours than necessary to
process mail.

We recommend the Manager, Processing Operations:

1. Follow up with the Canton Processing and Distribution Center and the Dallas Bulk
   Mail Center to ensure full implementation of the workhour reduction
   recommendations.

Management’s Comments

Management agreed with the recommendation. They expect the two facilities to realize
the appropriate workhour reductions by the end of FY 2009. Management’s comments
in their entirety are included in Appendix F.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the actions planned should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc:    Patrick R. Donahoe
       William Galligan
       Paul E. Vogel
       Anthony M. Pajunas
       Michael J. Nappi
       Katherine S. Banks




                                                  3
Follow-up Review of Implementation of Significant                                                    NO-AR-08-011
 Audit Recommendations Impacting Mail Processing Efficiency


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Between March 1, 2004, and March 31, 2008, the OIG issued 17 audit reports
addressing the efficiency of mail processing at 11 facilities with a monetary impact of
more than $1 billion, based on eliminating more than 3.4 million workhours.
Management agreed with all recommendations and the associated economic impacts.
We identified these savings in:

    •   4 ISCs.
    •   4 airmail record units (AMRUs).
    •   4 P&DCs.
    •   1 processing and distribution facility (P&DF).
    •   2 BMCs.
    •   1 airport mail center (AMC).
    •   1 carrier sequence barcode sorter (CSBCS) unit.

Click here to go to Appendix C for a listing of the 17 audit reports.

OBJECTIVES, SCOPE AND METHODOLOGY

Our objectives were to determine the progress made by the Postal Service in
implementing significant OIG audit recommendations affecting mail processing
efficiency, and in assessing the productivity and service impact of actions taken on
those recommendations. This report summarizes results as of September 30, 2007, on
the achievement of the workhour savings recommended in 11 reports dated March 1,
2004, through May 31, 2007. The 11 reports represent 78 percent of the recommended
workhour reductions identified in the 17 reports issued (see Chart 1).4 Our most recent
report, Timeliness of Mail Processing, Transportation and Delivery Operations in the
Chicago District, issued in March 2008, recommended reducing workhours by 697,245.
Insufficient time has passed to follow up on this report.

To achieve these objectives, we analyzed workhours, overtime, mail volume,
productivity, attrition rates, and service scores, and we interviewed Postal Service
officials and employees. We used computer-processed data from the following
systems:

    •   Web Enterprise Information System (WebEIS)
    •   Enterprise Data Warehouse



4
 We did not include four reports on AMRUs and the Efficiency of the Oakland International Service Facility and the
Regatta Facility (Report Number NO-AR-04-007, dated March 31, 2004) because the workhours were insignificant.




                                                         4
         Follow-up Review of Implementation of Significant                               NO-AR-08-011
          Audit Recommendations Impacting Mail Processing Efficiency


         We did not test controls over these systems. However, we checked the reasonableness
         of results by confirming our analysis and results with Postal Service managers and
         multiple data sources.

                                              Chart 1: Reports Reviewed

                                                                                                  Dollar
                                                         Report         Issue      Workhour     Amount of
                    Audit Report                         Number          Date      Reduction     Savings*
Oakland, CA ISC and the Regatta Facility              NO-AR-04-007     3/31/2004       40,000    $17,013,959
San Francisco, CA ISC and the General                 NO-AR-04-006     3/31/2004      120,000     44,200,000
Services Administration Facility
New York, NY ISC                                      NO-AR-04-009     9/24/2004      320,000     98,000,000
Mansfield, OH Main PO**                               NO-AR-05-004     12/8/2004       52,000     17,200,000
Akron, OH P&DC                                        NO-AR-05-009     3/30/2005      235,000     74,000,000
Los Angeles, CA ISC                                   NO-AR-05-011     6/17/2005       85,000     26,100,000
Canton, OH P&DC                                       NO-AR-05-013     9/22/2005      202,000     64,000,000
Washington, DC BMC                                    NO-AR-06-003     2/22/2006      400,000    118,000,000
Worldway AMC                                          NO-AR-06-006     9/12/2006      760,000    192,000,000
Bridgeport, CT P&DF                                   NO-AR-07-004     4/25/2007       53,000     17,740,107
Dallas, TX BMC                                        NO-AR-07-005     5/31/2007      418,000    134,971,638
                     TOTALS                                                         2,685,000   $803,225,704

*Savings are based on a 10-year projection.
**Post Office.

         We conducted this performance audit from July through September 2008 in accordance
         with generally accepted government auditing standards and included such tests of
         internal controls as we considered necessary under the circumstances. Those
         standards require that we plan and perform the audit to obtain sufficient, appropriate
         evidence to provide a reasonable basis for our findings and conclusions based on our
         audit objectives. We believe that the evidence obtained provides a reasonable basis for
         our findings and conclusions based on our audit objectives. We discussed our
         observations and conclusions with management officials on September 9, 2008, and
         included their comments where appropriate.

         PRIOR AUDIT COVERAGE

         The OIG has not completed any follow-up reviews of recommendations made in
         previous mail processing efficiency audits. Appendix C lists the mail processing
         efficiency audits issued since March 1, 2004, that identified monetary savings.




                                                           5
Follow-up Review of Implementation of Significant                                                      NO-AR-08-011
 Audit Recommendations Impacting Mail Processing Efficiency


                                  APPENDIX B: DETAILED ANALYSIS

Progress on Significant Recommendations

The Postal Service achieved significant results in addressing OIG recommendations to
improve mail processing efficiency through workhour reductions. The 11 audits
reviewed for this follow-up audit recommended reducing workhours by 2.7 million, for a
savings of $803 million. These reductions represent 24 percent of the annual mail
processing workhours at the 11 facilities. In response to OIG recommendations,
through FY 2007, the Postal Service has:

       •    Reduced workhours by 1.6 million, or approximately 61 percent of the total
            recommended reduction. (See Chart 2.)

       •    Significantly exceeded expectations at four of the 11 facilities, achieving
            77 percent or more of the recommended workhour savings.

       •    Achieved workhour reductions before the target completion date. For example,
            the Postal Service completed 61 percent of the recommended workhour
            reductions in approximately half the time recommended. (See Chart 3.)

       •    Achieved these reductions in workhours mainly through attrition, decreasing the
            total number of employees by 769, or 8 percent. (See Chart 4.)

       •    Improved productivity by more than 4 percent, as measured by first handled
            pieces (FHP) processed per workhour. The Akron P&DC has been the most
            successful, with a productivity gain of 15 percent. (See Chart 5.)

       •    Improved service scores. For example, comparisons of Overnight, 2-Day and 3-
            Day service scores for the P&DC and AMC sites to the scores recorded at the
            time of the initial audits showed improvement. (See Chart 6.)

       •    Decreased overtime usage at the majority of the facilities. Overtime hours
            decreased by 369,728, or approximately 29 percent. (See Chart 7.)

We noted that the Postal Service had not yet reduced workhours at two facilities, the
San Francisco and Los Angeles ISCs. However, the planned reorganization of the two
sites should produce the necessary workhour savings.5




5
    The OIG plans to review the reorganization of the San Francisco and Los Angeles ISCs in FY 2009.




                                                          6
          Follow-up Review of Implementation of Significant                                               NO-AR-08-011
           Audit Recommendations Impacting Mail Processing Efficiency



          Opportunity for Improvement

          The Postal Service had not made anticipated workhour reductions at the Canton P&DC
          and the Dallas BMC. As a result, these facilities may be using more workhours than
          necessary to process their workloads. Additional follow-up by the Postal Service is
          necessary to ensure that workhour reductions are completed.6

                                         Chart 2: Workhour Savings Results

                                                                                                                 Percentage
                            Proposed                                             Hours                           of Proposed
                            Workhour                          Base FY          Used in FY       Change in         Reduction
      Audit Site             Savings         Base FY         Workhours           2007           Workhours          Realized
 Oakland, CA ISC                40,000        2003               264,128          247,233           -16,895              42.24
 San Francisco, CA             120,000        2003               896,935          927,672          +30,737                0.00
 ISC
 New York, NY ISC               320,000        2003             2,835,248        2,686,570          -148,678             46.46
 Mansfield, OH Main              52,000        2003               270,748          222,650           -48,098              92.5
 PO
 Akron, OH P&DC7                235,000        2003                 795,543        757,519           -38,024              16.2
 Los Angeles, CA                 85,000        2004                 451,912        571,651          +119,739              0.00
 ISC
 Canton, OH P&DC                202,000        2003               430,679          397,560           -33,119              16.4
 Washington, DC                 400,000        2004             1,398,285        1,090,436          -307,849              77.0
 BMC
 Worldway AMC                   760,000        2004             1,584,212          578,385        -1,005,827             132.3
 Bridgeport, CT                  53,000        2005               110,772                0          -110,772             209.0
 P&DF
 Dallas, TX BMC                 418,000        2006             1,999,713        1,913,518           -86,195              20.6
   TOTALS                     2,685,000                        11,038,175        9,393,194        -1,644,981             61.27

Source: WebEIS – Operations/Management Operating Data System (MODS) (Daily)/Mail Processing/ Hours




          6
           The Akron P&DC has not substantially reduced workhours, but volume has increased by 10 percent, and
          productivity by 15 percent, since FY 2003. No additional follow-up is required.




                                                                7
Follow-up Review of Implementation of Significant                                                 NO-AR-08-011
 Audit Recommendations Impacting Mail Processing Efficiency


            Chart 3: Percentage Completion Time of Workhour Reductions
            Versus Percentage of Time Elapsed Based on Completion Date8

                                          Percentage of
                                            Proposed     Percentage
                                           Reduction      of Time
                           Audit Site       Realized      Elapsed
                    Oakland, CA ISC                42.24      100.00
                    San Francisco, CA ISC           0.00       80.00
                    New York, NY ISC               46.46       60.00
                    Mansfield, OH Main PO          92.50       40.00
                    Akron, OH P&DC                 16.20       28.57
                    Los Angeles, CA ISC             0.00       40.00
                    Canton, OH P&DC                16.40       66.67
                    Washington, DC BMC             77.00       50.00
                    Worldway AMC                  132.30       33.33
                    Bridgeport, CT P&DF           209.00       50.00
                    Dallas, TX BMC                 20.60       50.00
                       AVERAGES                    61.27       52.08




8
  Completion date means the time period Postal Service had to complete the recommendations as stated in the
individual audit reports.




                                                        8
   Follow-up Review of Implementation of Significant                                                NO-AR-08-011
    Audit Recommendations Impacting Mail Processing Efficiency


                                     Chart 4: Employee Complement

                                                Complement
                                    Pay Period 1,         Pay Period 26, Complement                 Percentage
         Audit Site                     2005                  2007         Change                    Change
 Oakland, CA ISC                              188                     84        -104                     -55.32
 San Francisco, CA ISC                        465                    484          19                       4.09
 New York, NY ISC                           1,726                  1,734           8                       0.46
 Mansfield, OH Main PO9                       134                    118         -16                     -11.94
 Akron, OH P&DC                               569                    517         -52                      -9.14
 Los Angeles, CA ISC                          255                    327          72                      28.24
 Canton, OH P&DC                              278                    284           6                       2.16
 Washington, DC BMC                           720                    614        -106                     -14.72
 Worldway AMC10                               808                    293        -515                     -63.74
 Los Angeles, CA P&DC                       2,457                  2,627         170                       6.92
 Bridgeport, CT P&DF11                         64                      0         -64                    -100.00
 Stamford, CT P&DC                            488                    453         -35                      -7.17
 Dallas, TX BMC                             1,149                    997        -152                     -13.23
        TOTALS                                 9,301                   8,532                 -769           -8.27
Source: WebEIS – Human Resources/Human Resources Technology/Complement – Encumbered, Total On-Roll.




   9
     The Mansfield Main PO transferred outgoing mail operations into the Akron P&DC.
   10
      Worldway AMC transferred its workload to the Los Angeles P&DC.
   11
      Mail processing operations were transferred from the Bridgeport P&DF to the Stamford P&DC.




                                                           9
            Follow-up Review of Implementation of Significant                                                     NO-AR-08-011
             Audit Recommendations Impacting Mail Processing Efficiency



                                            Chart 5: FY 2007 Productivity Results*
                    Base                           Base Year                                                   2007
Audit Site          Year         Volume                                Pieces per            Volume            Work-           Pieces per
                                                   Workhours
                     FY           (FPH)                                Workhour               (FPH)             hours             Hour
Oakland,
CA ISC              2003        5,105,108             264,128                19             4,357,516          247,233            18
New York,
NY ISC              2003       522,635,218           2,835,248              184            479,107,984        2,686,570           178
Mansfield,
OH Main
PO                  2003       359,362,989            270,748              1,328           272,192,753         222,650           1223
Akron, OH
P&DC                2003       651,912,096            795,543               819            715,724,803         757,519            945
Canton, OH
P&DC                2003       399,246,695            430,679               927            388,560,585         397,560            977
Washington,
DC BMC              2004        76,144,474           1,398,285               54             57,210,585        1,090,436           52
Dallas, TX
BMC                 2006        95,693,287           1,999,713               48             93,676,410        1,913,518            49
                                                                                                                                  275
                                                                                                                                 (4.2%
  TOTALS                      2,110,099,867          7,994,344              264           2,010,830,636       7,315,486        increase)

Source: WebEIS – Operations/MODS (Daily)/Mail Processing/Volume
*Does not include sites that discontinued mail processing operations in FY 2007 or have been consolidated. This includes the
planned Los Angeles and San Francisco ISC reorganization, as well as Bridgeport P&DF and Worldway AMC.

                  CHART 6: FY 2008 External First-Class Measurement System (EXFC) Results

                                                2004 EXFC Percent                          2008 EXFC12 Percent
                Audit Site                   O/N      2-Day    3-Day                     O/N      2-Day     3-Day
            Mansfield Main
            PO, Akron and                     94.11          89.23         89.14          94.89           92.62         91.17
            Canton P&DCs13
            Worldway AMC                      95.43          94.17         89.54          95.76           96.01         91.29
            Bridgeport, CT
                                              96.33          91.85         86.92          96.48           93.16         90.91
            P&DF
            Source: WebEIS – Operations/EXFC/Originating/Destinating Data
            O/N – Overnight




            12
                 Service scores through quarter 3, FY 2008.
            13
                 The Mansfield PO and the Akron and Canton P&DCs are all in the Northern Ohio District.




                                                                      10
         Follow-up Review of Implementation of Significant                                                 NO-AR-08-011
          Audit Recommendations Impacting Mail Processing Efficiency


                                           Chart 7: FY 2007 Overtime Results

                                                                                                                  Percentage
                                                  Base FY Percent-               FY 2007         Percent-         Change in
                                       Base       Overtime   age of              Overtime         age of           Overtime
        Audit Site                      FY         Hours    Overtime              Hours          Overtime           Hours
Oakland, CA ISC                        2003          21,663     8.20               12,600              5.10              -41.8
San Francisco, CA ISC                  2003         120,577    13.44               88,311              9.52              -26.8
New York, NY ISC                       2003         316,422    11.16              251,300              9.35              -20.6
Mansfield, OH Main PO                  2003          18,763     6.93               24,741            11.11              +31.9
Akron, OH P&DC                         2003          86,856    10.92              101,058            13.34              +16.4
Los Angeles, CA ISC                    2004          53,086    11.75               75,529            13.21              +42.3
Canton, OH P&DC                        2003          38,142     8.86               44,241            11.13              +16.0
Washington, DC BMC14                   2004         190,254    14.63               66,958              6.14              -64.8
Worldway AMC                           2004          79,942     5.05               28,497              4.93              -64.4
Bridgeport, CT P&DF                    2005           9,350     8.44                    0              0.00            -100.0
Dallas, TX BMC                         2006         326,534    16.33              198,626            10.38               -39.2
  TOTALS                                          1,261,589                       891,861                                -29.3
Source: WebEIS – Operations/MODS (Daily)/Mail Processing/Overtime




         14
              The Washington BMC changed its reporting systems during FY 2004. Overtime figures used are for FY 2005.




                                                                 11
   Follow-up Review of Implementation of Significant                               NO-AR-08-011
    Audit Recommendations Impacting Mail Processing Efficiency


             APPENDIX C: MAIL PROCESSING EFFICIENCY AUDIT REPORTS
                            AND MONETARY SAVINGS

                                     Report
       Audit Report                 Number            Issue Date     Workhours   Dollar Amount
Oakland, CA ISC                   NO-AR-04-007         3/31/2004          40,000   $ 17,013,959
San Francisco, CA ISC             NO-AR-04-006         3/31/2004         120,000     44,200,000
New York, NY ISC                  NO-AR-04-009         9/24/2004         320,000     98,000,000
New York, NY ISC AMRU             NO-AR-04-011         9/24/2004          30,000      9,300,000
Mansfield, OH Main PO             NO-AR-05-004         12/8/2004          52,000     17,200,000
Akron, OH P&DC                    NO-AR-05-009         3/30/2005         235,000     74,000,000
Los Angeles, CA ISC
                                  NO-AR-05-010           4/28/2005         5,450       1,800,000
AMRU
Los Angeles, CA ISC               NO-AR-05-011           6/17/2005        85,000      26,100,000
San Francisco, CA ISC
                                  NO-AR-05-012           9/6/2005          7,757       2,600,000
AMRU
Canton, OH P&DC                   NO-AR-05-013 9/22/2005                 202,000      64,000,000
Chicago, IL ISC AMRU              NO-AR-06-002 12/22/2005                  3,860       1,100,000
Washington, DC BMC                NO-AR-06-003 2/22/2006                 400,000     118,000,000
Seattle District CSBCS            NO-AR-06-005  8/2/2006                  10,521       3,688,930
Worldway AMC                      NO-AR-06-006 9/12/2006                 760,000     192,000,000
Bridgeport, CT P&DF               NO-AR-07-004 4/25/2007                  53,000      17,740,107
Dallas, TX BMC                    NO-AR-07-005 5/31/2007                 418,000     134,971,638
Summary Audit on the              NO-AR-08-003 3/28/2008                 697,245     231,337,397
Timeliness of Mail
Processing, Transportation,
and Delivery Operations in
the Chicago District
   TOTALS                                                              3,439,833 $1,053,052,031




                                                    12
Follow-up Review of Implementation of Significant                                       NO-AR-08-011
 Audit Recommendations Impacting Mail Processing Efficiency


                            APPENDIX D: WORKHOUR SAVINGS



                                       Savings Achieved

   250.00%

   200.00%

   150.00%

   100.00%

    50.00%

     0.00%
                             C




                                                                                 C
                                                          C




                                                                                 C




                                                                                  F


                                                                                 C
                             C


                             C


                           PO
                            C




                                                                                 C
                           D




                                                                                D
                                                        IS



                                                                               D


                                                                              BM




                                                                              BM
                          IS
                          IS
                          IS




                                                                              AM
                        P&




                                                                             P&
                                                                             P&
                                                   LA
                        n
                        o


                       rk
                      nd




                     ai




                                                                            n




                                                                            s
                    sc




                                                                          ay
                     n
                  Yo




                                                                          rt
                                                                          n


                                                                         to




                                                                        lla
                   la




                   M


                 ro




                                                                       to




                                                                      po
                 ci




                                                                       w
                                                                     ng
                ak




                                                                    Da
               ld
                w




                                                               n
              an




              Ak




                                                                    ld


                                                                   ge
                                                            Ca



                                                                  hi
              O




           Ne



             ie




                                                                 or
           Fr




                                                                id
                                                               as
          sf




                                                               W


                                                              Br
        n




       an




                                                              W
     Sa




     M




                                                       Audit Site

                                % of Proposed Reduction Realized    % of Time Elapsed

Source: Data for this graph is contained in Chart 3.




                                                       13
Follow-up Review of Implementation of Significant                NO-AR-08-011
 Audit Recommendations Impacting Mail Processing Efficiency


                                  APPENDIX E: ACRONYMS

AMC            Airmail center
AMRU           Airmail records unit
BMC            Bulk mail center
CSBCS          Carrier sequence bar code sorter
EXFC           External First-Class Measurement System
FHP            First handled pieces
ISC            International service center
MODS           Management Operating Data System
OIG            U.S. Postal Service Office of Inspector General
O/N            Overnight
PO             Post office
P&DC           Processing and distribution center
P&DF           Processing and distribution facility
WebEIS         Web Enterprise Information System




                                                 14
Follow-up Review of Implementation of Significant             NO-AR-08-011
 Audit Recommendations Impacting Mail Processing Efficiency


                       APPENDIX F: MANAGEMENT’S COMMENTS




                                                 15
Follow-up Review of Implementation of Significant             NO-AR-08-011
 Audit Recommendations Impacting Mail Processing Efficiency




                                                 16
